Case No. 20-1487

IN THE SUPREME COURT OF THE UNITED STATES
Donna M. Gilbert, et al.

v.

RADM Michael D. Weahke, et al.

(Petitioners)

(Respondents)

SUPPLEMENT TO PETITION FOR WRIT OF CERTIORARI
Mark Lewis Goldstone, Attorney
1496 Dunster Lane
Rockville, Md 20854
mglaw@comcast.net
cell (301)-346-9414
Supreme Court Bar #222548
This Supplement to the Petition for Writ of Certiorari to the Eighth Circuit Court of
Appeals decision is being filed in compliance with Supreme Court Rule 15. A similar case
is currently pending before the Supreme Court: Case No. 20-543, Yellen v. Confederated
Tribes.
The Yellen v. Confederated Tribes case was argued on April 19, 2021, before this Court.
The Gilbert v. Weahke Cert. Petition, Case No. 20-1487, was filed on April 14, 2021.
According to Supreme Court Rule 15.8, Case No. 20-543, Yellen v. Confederated Tribes,
is a “new Case” or “intervening matter” that was not available at the time of our last filing
1

which was our recently filed Cert. Petition on April 14, 2021, in Gilbert v. Weahke. The
two cases are very similar in that the definition of an Indian “Tribal Organization” is at
stake, and will determine who is eligible to receive federal benefits.
In Gilbert v. Weahke, the question is whether a federal agency, the Indian Health
Service (“IHS”), violated the law and its authority to award a multi-million dollar contract
to manage an IHS facility, the Sioux San Hospital, in Rapid City, South Dakota, to a state
non-profit corporation which is not a “Tribal Organization.” The decision made by this
Court in Gilbert v. Weahke will not just clarify and decide the definition of a Tribal
Organization, but also brings to the table, the legitimacy of the actions of a federal agency
which is currently impacting the health and welfare of thousands of people who currently
receive medical care at the Sioux San Hospital.
The ‘Federal Recognition” clause which restricts Congress to a government-togovernment relationship with sovereign Indian Tribes and provides the exclusive authority
to the Indian Tribes to establish Tribal Organizations, and not to a federal agency, is
discussed prominently during the Supreme Court oral argument on April 19, 2021, in the
afore-mentioned pending case of Yellen v. Confederated Tribes, Case No. 20-543:
“...Unlike Tribal corporations created under the Indian Reorganization Act

(“IRA”) or Tribal law, the regional and village ANCs established by ANCSA
are “state-chartered and state-regulated private business corporations.”
(Alaska v. Native Vill. of Venetie Tribal Gov’t, 522 U.S. 520, 534 (1998)
There is no law, case, or regulation that has given the authority to a federal agency to
create by its own accord a “Tribal Organization.”
2

For the Supreme Court to not grant certiorari and render a decision on this important
provision of Tribal law in Gilbert v. Weahke will allow this dangerous practice to continue.
The decision that the Supreme Court makes in Yellen v. Confederated Tribes, and
the underlying decision-making process, will have a direct impact on the Court’s
consideration and decision in the Gilbert v. Weahke case.
The Supreme Court in Yellen v. Confederated Tribes, Case No. 20-543, is being
asked to decide whether Alaska Native Corporations (ANC’s) qualify as “Indian Tribes”
under the Coronavirus Aid, Relief and Economic Security or CARES Act, and therefore
eligible for the $8 Billion dollars in federal relief funds to Tribal Governments-the
recognized governing body of an Indian Tribe.

CONCLUSION
In order to avoid recurring definitional issues and similar situations, and for judicial
economy, in order to clarify who is entitled to federal funds, the Petitioners respectfully
request that they be allowed to enter this supplement as part of their Petition.

3

CERTIFICATE OF SERVICE AND WORD COUNT
I hereby certify that all parties required to be served have been served with this
Supplement to a Petition for Writ of Certiorari electronically via Pacer, including Elizabeth
B. Prelogar, Acting Solicitor General, US Dept of Justice, 950 Pennsylvania Ave., NW.
Washington, D.C. 20530-0001 on this 14th day of May, 2021. Also as required by Supreme
Court Rule 33.1(h), I certify that the document contains 716 words. I declare under penalty
of perjury that the foregoing is true and correct to the best of my abilities.

s/s Mark Lewis Goldstone
Mark Lewis Goldstone, Attorney for Petitioners
Supreme Court Bar #222548
1496 Dunster Lane
Rockville MD 20854
mglaw@comcast.net
Cell Phone: (301)-346-9414

4

